TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Despite Some Favorable Partnership
                           Audit Trends, the Number of
                          No-Change Audits Is a Concern



                                            June 20, 2012

                               Reference Number: 2012-30-060




  This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
   and information determined to be restricted from public release has been redacted from this document.


Redaction Legend:
1 = Tax Return/Return Information


Phone Number | 202-622-6500
E-mail Address | TIGTACommunications@tigta.treas.gov
Website       | http://www.tigta.gov
                                                 HIGHLIGHTS


DESPITE SOME FAVORABLE                              However, Fiscal Year 2011 statistics from the
PARTNERSHIP AUDIT TRENDS, THE                       SB/SE Division showed that 50 percent of the
NUMBER OF NO-CHANGE AUDITS IS A                     partnership returns audited after selection by or
CONCERN                                             related to the Discriminant Index Function were
                                                    closed as a no-change. Except for a few
                                                    instances, TIGTA did not find any significant
Highlights                                          quality problems during our review that would
                                                    suggest how the items selected and audited on
                                                    partnership returns could substantially improve
Final Report issued on June 20, 2012                the no-change rates. Examiners generally
                                                    followed procedures in selecting and verifying
Highlights of Reference Number: 2012-30-060         the accuracy of items they audited on
to the Internal Revenue Service Commissioner        partnership returns.
for the Small Business/Self-Employed Division.
                                                    SB/SE Division researchers should consider
IMPACT ON TAXPAYERS                                 exploring partnership data files to determine
In deciding which returns to audit, the IRS         whether the most productive returns are
strives to select those returns for which its       selected for audit. With skills in such specialized
examiners are likely to find areas of               areas as statistics, operations research,
noncompliance and recommend changes to              economics, and computers, SB/SE Division
one or more items reported on the return.           researchers are uniquely qualified to suggest
However, the number of audits closed with no        alternative audit selection methods and explore
recommended adjustments (no-change) is              details such as evaluating whether examiners
high among the returns selected by the              should audit more partnership returns with
Discriminant Index Function system, which uses      international features or assessing the revenue
mathematical formulas to calculate and assign a     impact from partnership audits.
score to returns based on their audit potential.    WHAT TIGTA RECOMMENDED
According to the IRS, a high no-change rate
means compliant taxpayers are unnecessarily         TIGTA recommended that, as resources
burdened by audits.                                 become available, the Director, Research,
                                                    SB/SE Division, analyze partnership data files to
WHY TIGTA DID THE AUDIT                             help identify additional productive returns for
This audit was initiated to determine whether       audit, including returns with international
Small Business/Self-Employed (SB/SE) Division       features.
examiners are conducting audits of partnership      In their response to the report, IRS officials
tax returns in accordance with IRS policy and       agreed with the recommendation and stated that
procedures. The review was part of our Fiscal       the Director, Research, SB/SE Division, plans to
Year 2011 audit coverage and addresses the          work in collaboration with the SB/SE Division’s
major management challenge of Tax                   Examination function to analyze partnership
Compliance Initiatives.                             data files in order to better identify productive
WHAT TIGTA FOUND                                    partnership returns for audit, including those
                                                    returns with international features. As part of the
The IRS closed nearly 25 percent more               return analysis, the SB/SE Division’s Research
partnership audits in Fiscal Year 2011 than in      function plans to consult with other IRS research
Fiscal Year 2007. While the number of               units.
partnership audits has increased, the time
examiners spend on partnership audits has
decreased. The average number of calendar
days for audits decreased almost 11 percent,
and the number of examiner hours decreased
more than 15 percent.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 20, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Despite Some Favorable Partnership Audit
                             Trends, the Number of No-Change Audits Is a Concern
                             (Audit # 201030027)

 This report presents the results of our review to determine whether Small Business/
 Self-Employed Division examiners are conducting audits of partnership tax returns in
 accordance with Internal Revenue Service policy and procedures. The review was part of our
 Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent the Internal Revenue Service managers affected by the
 report recommendation. Please contact me at (202) 622-6510 if you have questions or
 Frank J. Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (213) 894-4470 (ext. 128).
                                  Despite Some Favorable Partnership Audit Trends,
                                    the Number of No-Change Audits Is a Concern




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Examiners Spend Less Time on Partnership Audits While
          Recommending a Considerable Amount of Adjustments to
          the Returns .................................................................................................... Page 3
          The Number of Unproductive Audits Is High for Partnerships
          That Are Not Involved in Abusive Transactions .......................................... Page 6
                    Recommendation 1:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Glossary of Terms ................................................................ Page 15
          Appendix V – Management’s Response to the Draft Report ....................... Page 16
        Despite Some Favorable Partnership Audit Trends,
          the Number of No-Change Audits Is a Concern




                 Abbreviations

AIMS       Audit Information Management System
BRTF       Business Return Transaction File
DIF        Discriminant Index Function
FY         Fiscal Year
IRS        Internal Revenue Service
SB/SE      Small Business/Self-Employed
TEFRA      Tax Equity and Fiscal Responsibility Act of 1982
TIGTA      Treasury Inspector General for Tax Administration
                             Despite Some Favorable Partnership Audit Trends,
                               the Number of No-Change Audits Is a Concern




                                             Background

Partnerships are associations of two or more persons or entities, such as corporations or other
partnerships that join to carry on a trade or business. Each partner generally contributes money,
property, labor, or specialized skills in exchange for a share of the profits and losses from the
partnership. Although partnerships are required to annually file Form 1065, U.S. Return of
Partnership Income, no taxes are paid with these tax returns. The partners are responsible for
reporting and paying any applicable taxes on their respective income tax returns for their share of
the partnership’s income. Because the partnership distributes untaxed income, losses, credits,
and other tax items to the respective partners, partnerships are commonly referred to as
flow-through entities.
Partnerships have provided a very popular way to shelter income from taxation because they
have minimal legal startup formalities and costs, as well as the legal capacity to pass on to their
partners losses that can be used to offset wages and other income sources of the partners.
Changes in the legal and regulatory environment in the 1990s contributed to making partnerships
one of the fastest growing segments of all tax returns filed. These changes include the creation
of Limited Liability Companies1 and the issuance of Check-the-Box Regulations2 by the
Department of the Treasury. Currently, the Internal Revenue Service (IRS) Small Business/
Self-Employed (SB/SE) Division is responsible for managing most of the programs and activities
related to partnerships, although the Large Business and International Division serves
partnerships with more than $10 million in assets.
Because partnership losses can offset other income sources of the partners, in the 1970s and early
1980s, some taxpayers began using partnerships as a vehicle to take advantage of unintended
loopholes in the tax laws. Enactment of the Tax Equity and Fiscal Responsibility Act of 1982
(TEFRA)3 by Congress was intended, in part, to close these loopholes by including in the
Internal Revenue Code statutory procedures that affected how the IRS conducts examinations of
partnerships and certain other entities that meet the criteria under the TEFRA. The IRS
developed a set of administrative procedures and updated the Internal Revenue Manual4 to guide
and assist its examiners and other personnel in complying with TEFRA statutory procedures.


1
  This is a business entity that offers its owners the advantage of limited liability (like corporations) and
partnership-like taxation, in which profits are passed through to the owners and taxed on their personal income tax
returns.
2
  U.S. Treasury Regulations allow most unincorporated businesses to elect, by checking a box, whether they will be
taxed as a corporation or a flow-through entity, such as a partnership, for Federal income tax purposes.
3
  Pub. L. No. 97-248, 96 Stat. 324 (codified in scattered sections of 26 U.S.C.).
4
  For example, many of the procedures for examining returns subject to the TEFRA are contained in Internal
Revenue Manual 4.31 (Oct. 1, 2010).
                                                                                                            Page 1
                               Despite Some Favorable Partnership Audit Trends,
                                 the Number of No-Change Audits Is a Concern



For partnerships subject to the TEFRA, the treatment of partnership items is determined at the
entity level in one unified examination. Among other things, the TEFRA provides that: 1) every
partnership has a tax matters partner5 to serve as a liaison with the IRS, 2) tax adjustments to the
partnership are made in one examination and are binding to all partners, and 3) special notices
are issued and procedures followed by the IRS at the beginning and end of examinations.
Current TEFRA procedures apply to partnerships that have more than 10 partners or have
partners that are S Corporations, other partnerships, or Limited Liability Companies that filed
partnership returns.
For partnerships not subject to the TEFRA, partnership audits are in many ways like an audit of
the individual partners. Each partner’s return is audited separately, and the determination and
treatment of partnership items for one partner is not binding on any other partner. Additionally,
the statute of limitations for assessment of taxes is tied to the individual partners’ returns.
Therefore, for the IRS to extend the statute of limitations to facilitate completing the audit of a
partnership return, each partner must sign a consent form. This process can result in logistical
problems for the IRS, especially if the partners are geographically dispersed and returns are filed
at different IRS processing centers.
This review was performed at the IRS’s SB/SE Division Headquarters in New Carrollton,
Maryland, and the SB/SE Division field offices in Laguna Niguel, California; Denver, Colorado;
Cincinnati, Ohio; and Oklahoma City, Oklahoma, during the period August 2010 through
November 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
    See Appendix IV for a glossary of terms.
                                                                                             Page 2
                            Despite Some Favorable Partnership Audit Trends,
                              the Number of No-Change Audits Is a Concern




                                      Results of Review

The IRS developed a variety of sources to select tax returns for audit. The IRS strives to select
those returns for which its examiners are likely to find areas of noncompliance and recommend
changes to one or more items reported on the return. One audit source is the Discriminant Index
Function (DIF) system, which the IRS has relied on to help decide how to best allocate its audit
resources. The system uses mathematical formulas to calculate and assign a score to returns
based on their audit potential. The higher the score, the greater the chance an audit will result in
recommended changes to the return.
While IRS audit sources have led to a substantial amount of recommended adjustments to items
reported on partnership returns, the number of audits closed with no recommended adjustments6
(no-change) is high for DIF-selected returns and returns related to the DIF-selected returns, such
as the prior or subsequent year returns of the selected taxpayers. For example, SB/SE Division
statistics show that 50 percent of the partnership returns audited after being selected by the DIF,
or related to a DIF-selected return, were closed as a no-change in Fiscal Year (FY) 2011.
According to the IRS, a high no-change rate means the IRS is spending a significant amount of
resources on unproductive audits and compliant taxpayers are unnecessarily burdened by audits.

Examiners Spend Less Time on Partnership Audits While
Recommending a Considerable Amount of Adjustments to the
Returns
Although the IRS has historically emphasized auditing taxable business entities, such as sole
proprietorships, in recent years, it has focused on maintaining audit coverage across all filing
segments and on areas presenting the highest compliance risk. The number of partnership audits
has increased as the IRS strives to maintain coverage over the growing number of partnership
returns filed while addressing the compliance risk they pose. In terms of their compliance risk,
partnerships can provide its partners with opportunities to structure transactions improperly so
that they can reduce the income taxes the partners would otherwise owe. For example, in
Calendar Year 2000, the IRS published guidance on 10 transactions that would likely trigger an
audit because they purportedly abuse the tax law, represent a significant loss of tax revenue, and
undermine the public’s confidence in the tax system. Reflecting the increased compliance risk,
there are 34 such transactions as of January 2012, several of which involve partnerships.



6
 For this report, we considered audits closed with Disposal Code 02 as no-changes. For a flow-through entity, this
means that no adjustments were made to the reported income, loss, deductions, or credits of the entity.
                                                                                                           Page 3
                           Despite Some Favorable Partnership Audit Trends,
                             the Number of No-Change Audits Is a Concern



The IRS closed 24.94 percent more partnership audits in FY 2011 than in FY 2007 and, as
Figure 1 shows, except for partnerships with $10 million or more in assets, the increases
occurred for nearly every size of partnership.
                      Figure 1: SB/SE Division Partnership Audit Closures
                                  for FYs 2007 Through 2011

                                     Number of Partnership Returns Audited                   Percentage
      Dollar Value of                                                                         Change:
      Reported Assets                                                                        FY 2007 –
                            FY 2007     FY 2008      FY 2009       FY 2010      FY 2011       FY 2011
    Under $250,000           2,313       2,500         2,811        2,232         2,714        17.34%
    $250,000 to Under
    $1 Million
                               665         722           759          800           892        34.14%

    $1 Million to Under
    $5 Million
                               816         865           931        1,109         1,218        49.26%

    $5 Million to Under
    $10 Million
                               289         273           266          321           345        19.38%

    $10 Million and Over       167         151           121          113           141       -15.57%
             Totals          4,250       4,511         4,888        4,575         5,310        24.94%
  Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Audit Information
  Management System (AIMS) data for partnership audits completed in FYs 2007 through 2011.

While the number of partnership audits has increased, the time examiners spend on partnership
audits has decreased. This is noteworthy because, in response to surveys showing business
taxpayers wanted the audit process to consume less time, the IRS invested considerable effort in
work process changes focused on reducing the length of audits. As Figure 2 shows, both the
number of examiner hours and the number of calendar days spent on partnership audits
decreased between FYs 2007 and 2011. The average number of calendar days for all partnership
audits decreased 10.47 percent and the average number of examiner hours decreased
15.56 percent.




                                                                                                    Page 4
                           Despite Some Favorable Partnership Audit Trends,
                             the Number of No-Change Audits Is a Concern



                 Figure 2: Average Calendar Days and Examiner Hours
              for SB/SE Division Partnership Audits in FYs 2007 and 2011

                                    Average Number of                     Average Number of
      Dollar Value of                 Calendar Days                        Examiner Hours
       Total Assets
                                                   Percentage                              Percentage
                           FY 2007      FY 2011     Change        FY 2007     FY 2011       Change
     Under $250,000           893          827        -7.39%         34          31             -8.82%
     $250,000 to Under
     $1 Million               904          850        -5.97%         46          39         -15.22%
     $1 Million to Under
     $5 Million               948          806       -14.98%         56          45         -19.64%
     $5 Million to Under
     $10 Million            1,065          856       -19.62%         69          49         -28.99%
     $10 Million and
     Over                   1,384        1,195       -13.66%         90          68         -24.44%

     Average for All
     Partnership Audits
                              936          838       -10.47%         45          38         -15.56%

   Source: TIGTA analysis of AIMS data for partnership audits completed in FYs 2007 and 2011.

In addition to reducing the time spent on partnership audits, examiners are recommending a
considerable amount of adjustments to items reported on the returns. For example, in FY 2011,
examiners closed 5,310 audits of partnership returns and recommended approximately
$728 million in adjustments to items reported on the returns. This indicates that examiners
recommended an average of $137,000 in adjustments for each return audited. When analyzing
the recommended audit adjustments, it is important to recognize what they represent. In general,
the recommended adjustments measure only the items or portion of items the examiner believes
were not properly reported on the partnership return when it was filed. The recommended
adjustments do not measure the amount of taxes that will ultimately be assessed. Generally, the
taxes assessed are significantly lower than the recommended adjustments to items on the tax
returns.
At the close of a partnership audit, if an examiner recommends an adjustment to the partnership’s
tax liability, the partners or the tax matters partner may agree or disagree with the examiner’s
determination. If the partners or tax matters partner agree with the examiner’s determination, the
audit adjustments pass through to their individual tax returns, where the tax is computed based
on each partner’s income tax bracket and percentage of ownership in the partnership. For
example, if adjustments of $4,000 were made to the tax return of a partnership that has two equal
partners in the 35 percent tax bracket, each partner would be assessed $700 on his or her
individual return (50 percent of $4,000 multiplied by the 35 percent tax rate). If the partners or
tax matters partner disagree with the examiner’s determination, the dispute is settled through the


                                                                                                         Page 5
                          Despite Some Favorable Partnership Audit Trends,
                            the Number of No-Change Audits Is a Concern



IRS appeals process or the court system, both of which can significantly reduce or even eliminate
the proposed adjustments.

The Number of Unproductive Audits Is High for Partnerships That Are
Not Involved in Abusive Transactions
One important measure of audit productivity the IRS tracks is the percentage of audited returns
that result in recommended adjustments to the return. The IRS associates a high percentage of
audited returns that result in recommended adjustments with greater audit productivity, while
audits that result in no change are considered unproductive. In FYs 2009 through 2011, the
SB/SE Division no-changed 5,247 partnership return audits of the 14,773 partnership returns it
selected for audit from all sources. This indicates that about one out of every three (36 percent)
partnership returns audited was closed as a no-change. However, the no-change rate was
considerably higher for the partnership returns selected by the DIF or related to a DIF-selected
return.
The average DIF no-change rate was about 49 percent for FYs 2009 through 2011. In
comparison, the average no-change rate for partnership returns selected for audit because of an
abusive transaction was around 17 percent for FYs 2009 through 2011. As Figure 3 shows,
partnership returns selected from audit sources other than the DIF also had a lower no-change
rate than DIF-selected returns. These other sources include IRS projects and studies such as the
ones designed to focus on specific suspected areas of noncompliance, other than known abusive
transactions.
        Figure 3: SB/SE Division Closures of Audits of Partnership Returns
                    in FYs 2009 Through 2011 by Audit Source
      Selected                                               DIF and                   All Other
     Statistical         Abusive Transactions               DIF-Related               Audit Sources
     Categories           FY       FY       FY        FY        FY         FY      FY       FY      FY
                         2009     2010     2011      2009      2010       2011    2009     2010    2011
  Total Partnership
                        1,414     971      1,439     1,535     1,957      2,129   1,939    1,647   1,742
  Returns Audited (a)
  Audits With
                        1,199     750      1,207     878        928       1,069   1,381    1,072   1,042
  Adjustments (b)
  No-Change Audits
                         215      221        232     657       1,029      1,060   558       575    700
  (a) – (b)
  No-Change Rate        15.21% 22.76% 16.12%        42.80%    52.58% 49.79% 28.78% 34.91% 40.18%
Source: TIGTA analysis of AIMS data for partnership audits completed in FYs 2009 through 2011.

The difference between the DIF no-change rate and the no-change rate of returns audited because
of an abusive transaction or as part of an IRS project can be attributed to how returns are selected

                                                                                                   Page 6
                                Despite Some Favorable Partnership Audit Trends,
                                  the Number of No-Change Audits Is a Concern



for audit and how well examiners audit the returns. For example, once the IRS identifies an
abusive transaction and its participants, the participants’ returns are assigned to examiners who
disallow the abusive transaction and compute the additional taxes and penalties that may be
owed. In contrast, partnership returns selected by DIF mathematical formulas do not identify the
specific items to audit. Instead, examiners use their experience and judgment to screen the return
manually to identify the items that are questionable and should be included in the audit.
Consequently, outdated compliance data in the formulas, unintentional errors that are inherent in
any manual process, and audits that do not meet quality standards are all factors that contribute
to high no-change rates.
Except for a few instances, we did not find any significant quality problems during our review of
closed audits that indicated how examiners might select and audit the items on partnership
returns to substantially change the no-change rates. However, we believe SB/SE Division
researchers should consider exploring the use of partnership data files to determine if the most
productive returns are selected for audit.

Examiners generally followed procedures in verifying the accuracy of items on
partnership returns
We evaluated a judgmental sample7 of 60 partnership audits closed by the SB/SE Division in
FY 2009 and found that examiners generally documented the steps taken to plan the audits, used
a variety of fact-finding techniques to determine the accuracy of the partnership returns, and
cited applicable sections of the tax law to support any recommended adjustments. However, we
found that examiners did not properly consider issues between the partnership and related returns
(e.g., the individual returns of the partners, information returns, and employment tax returns) in
22 of the 60 audits.
While the related return issues would not have changed the recommended adjustments for the
partnership return or affected the partnership no-change rate, they might have resulted in changes
to one or more of the partner’s returns. Such changes could make the overall audit effort more
productive than official IRS statistics indicate. This is because the IRS reports a partnership
audit as a no-change when the adjustments do not change the partnership return, even if the
adjustments result in changes to one or more of the partner’s returns.
For example, we found instances where one or more partner’s estimated personal living expenses
far exceeded (more than $10,000) the income reported on their individual returns. The
differences noted between expenditures and income raise serious questions about whether the
partnership audit should have been expanded to include the partner’s individual returns to
determine if there were additional sources of income that should have been reported on the
returns.


7
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 7
                             Despite Some Favorable Partnership Audit Trends,
                               the Number of No-Change Audits Is a Concern



We recently made recommendations in other reports to address the quality concerns with issues
on related returns during audits.8 The SB/SE Division responded with plans for improvement
efforts that include taking advantage of the IRS’s automated information systems and its
performance management processes to ensure examiners properly consider and address issues on
related returns during audits. Therefore, we are not making any additional recommendations for
related return issues at this time.

SB/SE Division researchers should consider using IRS data files to identify more
productive returns for audit
The IRS last studied and measured how well partnerships comply with tax laws by using the
returns filed for Tax Year 1981. Since then, economic changes, time, and major legislative and
regulatory changes, such as TEFRA and Check-the-Box regulations, have rendered the formulas
less effective in minimizing no-change audits. IRS Data Books show that after introducing new
formulas shortly after the last study, the no-change rate for partnership audits dropped from a
high of 49 percent in 1983 to a low of 18 percent in 1989, but has climbed to above 30 percent in
the 1990s and has remained over 40 percent since the 2000s. According to IRS officials, because
of budget constraints, there are no plans to collect and study the compliance data needed to
update the scoring system for selecting partnership returns for audit. Therefore, the SB/SE
Division should pursue alternative audit selection techniques by using existing databases
containing partnership data to help identify additional productive returns for audit.
To illustrate, we compared the Business Return Transaction File (BRTF) database to the audit
results for DIF-selected and DIF-related returns in the FY 2011 AIMS database. We found that
audits of real estate or construction industry partnerships with two partners and a reported loss
were highly productive in terms of recommended adjustments. The 321 audited returns meeting
these criteria accounted for approximately $215.5 million in recommended adjustments, or about
$671,000 for each return audited.9 In comparison, the 3,181 non-DIF-selected or DIF-related
audited returns closed in FY 2011 generated recommended adjustments of approximately
$283 million, or about $89,000 per return. Although this analysis may have limitations, it
suggests that directing resources to partnerships with two partners reporting a loss in the real
estate or construction industries might result in audits that are more productive.




8
  See, for example, TIGTA, Ref. No. 2011-30-084, Additional Steps Are Needed to Better Ensure Audits Are
Expanded to Prior and/or Subsequent Year Returns When Substantial Taxes May Be Owed, p. 11 (Sep. 2011) and
TIGTA, Ref. No. 2011-30-113, Steps Can Be Taken to Enhance the Quality of Audits Involving Small Corporate
Returns, p. 10 (Sep. 2011).
9
  This and other calculations in the report are affected by rounding. All initial calculations were performed using the
actual numbers rather than the rounded numbers that appear in the report.
                                                                                                              Page 8
                             Despite Some Favorable Partnership Audit Trends,
                               the Number of No-Change Audits Is a Concern



The SB/SE Division should explore partnership returns with international features
According to the IRS, the compliance risk associated with international tax transactions involves
significant tax revenues and presents tax administration challenges as businesses continue to
expand operations across international borders and engage in international transactions. To
evaluate and address the compliance risks posed by returns with international features, the IRS
relies largely on its staff of international examiners (specialists). Geographically dispersed
throughout the country, the estimated 568 specialists are selected from the ranks of experienced
IRS examiners and then trained to take on the complexities of the international tax laws. In
FY 2011, the specialists spent over 235,000 hours on audits and recommended that business
entities pay almost $2.1 billion in additional taxes. This indicates that for each hour a specialist
spent auditing a business entity, they generated about $8,800 in recommended additional taxes.
Considering the large amount of adjustments generated by specialists, it is not surprising that
IRS procedures require their involvement for returns containing certain international features,
both in selecting returns for audit and after initiating an audit. To make requests for assistance
faster and less cumbersome, in 2002, the IRS replaced a paper process with the Specialist
Referral System, which allows examiners to request a specialist’s assistance online. The
Specialist Referral System also provides management with a tool for monitoring the timeliness
of service requests.
To assess the SB/SE Division’s audit coverage of partnership returns with international
features,10 we analyzed BRTF and AIMS data for Processing Years 2007 through 2011 and
matched the data to closed AIMS data for FYs 2009 through 2011. We found that of the
16,192,563 partnership returns reporting less than $10 million in assets filed during this period,
32,090 returns contained international features. The SB/SE Division audited only 10 of those
partnership returns *******************************1**************************.
There are various limitations to the above analysis and the previous analysis involving BRTF and
AIMS data. Therefore, we do not expect the IRS to change how it selects partnership returns
based on our limited analysis. For example, we did not evaluate the closed audit files to
determine why the returns were selected for audit or the basis for the recommended adjustments
to the returns. In addition, we did not attempt to assess the tax impact at the partner level from
the adjustments. Without assessing the tax impact at the partner level, the productivity from the
audits might be higher because significant adjustments might have been made to the partners’
individual returns even though the audit of the partnership returns might have resulted in a
no-change.




10
  Due to data limitation, the analysis is limited to partnership returns filed with the SB/SE Division that included
Form 8858, Information Return of U.S. Persons With Respect to Foreign Disregarded Entities; Form 8865, Return
of U.S. Persons With Respect to Certain Foreign Partnerships; or reporting foreign taxes greater than $25,000.
                                                                                                              Page 9
                        Despite Some Favorable Partnership Audit Trends,
                          the Number of No-Change Audits Is a Concern



However, our analysis shows how the IRS could use data files to identify productive returns for
audit and could prove useful to SB/SE Division researchers who are responsible for providing
information, guidance, and advice on methodologies and strategies for optimizing available
resources to address areas of noncompliance. With skills in such specialized areas as statistics,
operations research, economics, and computers, SB/SE Division researchers are uniquely
qualified to suggest alternative audit selection methods and explore details that we did not, such
as assessing the revenue impact from partnership audits by determining the taxes assessed or
refunded at the partner level.

Recommendation
Recommendation 1: As resources become available, the Director, Research, SB/SE Division,
should analyze partnership data files to help identify additional productive returns for audit,
including those returns with international features.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Research, SB/SE Division, plans to work in collaboration with the SB/SE
       Division’s Examination function to analyze partnership data files in order to better
       identify productive partnership returns for audit, including those returns with
       international features. As part of the return analysis, the SB/SE Division’s Research
       function will consult with the Large Business and International Division and other
       Headquarters Research units.




                                                                                           Page 10
                             Despite Some Favorable Partnership Audit Trends,
                               the Number of No-Change Audits Is a Concern



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to determine whether SB/SE Division examiners are conducting audits
of partnership tax returns in accordance with IRS policy and procedures. To accomplish this
objective, we:
I.      Evaluated the adequacy of controls for ensuring that partnership audits in the SB/SE
        Division are conducted in accordance with IRS policy and procedures. This included
        documenting the applicable Internal Revenue Code sections, Treasury Regulations,
        Internal Revenue Manual (policy and procedural) sections,1 examiner training materials,
        and IRS public announcements.
II.     Determined how closely examiners are following IRS procedures and guidelines during
        partnership audits.
        A. Obtained FY 2007 through FY 2009 closed AIMS2 data for Form 1065, U.S. Return
           of Partnership Income, partnership cases worked by SB/SE Division examiners. We
           conducted the following analyses:
             1. Analyzed the number of audit closures by asset class.
             2. Analyzed the overall no-change rate to determine which types of cases
                contributed the highest no-change rate to the overall percentage.
             3. Analyzed the adjustment amounts.
             4. Randomly selected 20 closed accounts from the AIMS data for validation against
                the Integrated Data Retrieval System. We found no discrepancies and determined
                the data were reliable for report purposes.
        B. Selected a judgmental sample3 of 60 closed FY 2009 partnership audits for
           evaluation. We determined whether examiners followed proper procedures during
           these audits, to include:


1
  For example, the policy statements for the examining process are contained in Internal Revenue Manual 1.2.13
(Aug. 31, 2007), and many of the procedures for examining returns are contained in Internal Revenue Manual 4.10.1
(Jul. 13, 2001).
2
  See Appendix IV for a glossary of terms.
3
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
Judgmental samples were used in all instances because we did not intend to project the results of the samples to the
entire population.
                                                                                                          Page 11
                           Despite Some Favorable Partnership Audit Trends,
                             the Number of No-Change Audits Is a Concern



            1. Conducting required filing checks.
            2. Adequately addressing any issues identified by classifiers.
            3. Identifying and addressing any other significant issues on the face of the
               partnership tax return.
III.    Analyzed FY 2011 closed AIMS data for DIF-selected cases with above-average
        adjustments and matched them to the BRTF to obtain their return characteristics. We
        computed the recommended and average adjustments. We also computed the
        recommended and average adjustments for non-DIF-selected cases.
IV.     Evaluated SB/SE Division and Large Business and International Division partnership
        returns with international features.
        A. Obtained data from the BRTF for Processing Years 2007 through 2011 for returns
           filed with Form 8858 or Form 8865,4 or reporting foreign taxes greater than $25,000,
           and matched that data to the closed AIMS data for FYs 2009 to 2011.
        B. Determined whether the SB/SE Division refers partnership audits with international
           features to Large Business and International Division specialists for assistance.
        C. Randomly selected 10 accounts from the BRTF data for validation against the
           Integrated Data Retrieval System. We found no discrepancies and determined the
           data were reliable for report purposes.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
examining partnership returns. We evaluated these controls by reviewing source materials,
interviewing management, reviewing examination case files, and researching taxpayer accounts.




4
 Form 8858, Information Return of U.S. Persons With Respect to Foreign Disregarded Entities, and Form 8865,
Return of U.S. Persons With Respect to Certain Foreign Partnerships.
                                                                                                     Page 12
                      Despite Some Favorable Partnership Audit Trends,
                        the Number of No-Change Audits Is a Concern



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Aaron Foote, Acting Audit Manager
William Tran, Lead Auditor
Kristi Larson, Senior Auditor
Stanley Pinkston, Senior Auditor




                                                                                      Page 13
                      Despite Some Favorable Partnership Audit Trends,
                        the Number of No-Change Audits Is a Concern



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large Business and International Division SE:LB
Deputy Commissioner, Large Business and International Division SE:LB
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Commissioner, Small Business/Self-Employed Division SE:S
                 Commissioner, Large Business and International Division SE:LB




                                                                                  Page 14
                       Despite Some Favorable Partnership Audit Trends,
                         the Number of No-Change Audits Is a Concern



                                                                               Appendix IV

                               Glossary of Terms

Asset Class – A method used by the IRS to classify business returns for examination purposes
based on the amount of assets held by the taxpaying entity.
Audit Information Management System – A computer system used by the SB/SE Division and
others to control returns, input assessments/adjustments to the Master File, and provide
management reports.
Business Return Transaction File – A computer file of the transcribed line items on all
business returns and their accompanying schedules or forms.
Discriminant Index Function – Mathematical formulas used by the IRS to calculate and assign
a score for all partnership and other types of returns based on their examination potential.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Integrated Data Retrieval System – An IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
IRS Data Book – Provides information on returns filed and taxes collected, enforcement,
taxpayer assistance, the IRS budget and workforce, and other selected activities.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations accounts.
Processing Year – The year in which the IRS processes tax returns and other tax data.
Tax Matters Partner – The designated general partner who serves as a liaison with the IRS.




                                                                                          Page 15
        Despite Some Favorable Partnership Audit Trends,
          the Number of No-Change Audits Is a Concern



                                                   Appendix V

Management’s Response to the Draft Report




                                                           Page 16
Despite Some Favorable Partnership Audit Trends,
  the Number of No-Change Audits Is a Concern




                                                   Page 17
